     Department of Homeland Security





              FEMA Public Assistance Grant
           Funds Awarded to Prairie Land Electric
              Cooperative, Inc., Norton, Kansas




DD-12-02                                     November 2011

                                                                            OfficI! of Impector Olflero.J

                                                                             1J.s. Depa rtmeflt or Homd a nd Security
                                                                             Wa<lhington, DC 20528



                                                                             Homeland
                                                                             Security
                                                NOV        1 2011

MEMORANDUM FOR:                       Beth A. Freeman
                                      Regional Administrator, Region VII
                                      Federal Emerge~c~
                                                     , em::,~~;ncy
FROM:                                 Matt Jadacki '          . ..- - •
                                      Assistant Tnspect r Gcner
                                      Office of Emergency Management Oversight

SUBJECT:                              FEMA Public AS.\'istance Grant Furuls Awarded to
                                      Prairie Land Electric Cooperative, Inc. , Norton, Kansas
                                      FEMA Disaster Number l626-DR-KS
                                      Audit Report Number DD-12-02

We audited public assistance grant funds awarded to Prairie Land Electric Cooperative, Inc.,
(Cooperative) in Norton, Kansas, Public Assistance Identification Number OOO-UOY08 OO. Our                         w




audit objecti ve was to detennine whether the Cooperative accounted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to federal regulations and
fEMA guidelines.

The Kansas Division of Emergency Management (KDEM), a FEMA grantee, awarded the
Cooperative $27 milli on for damages caused during a severe winter storm on November 27- 28,
2005. The award provided 75% funding for two large projects and one sma ll project.! We
audited all proj ects under the award (see Exhibit. Schedule of Projects Audited). The audit
covered the period November 27, 2005, through May 26, 2009.

We conducted this perfonnance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generaLLy accepted government auditing standards. Those standards
require that we plan and perfonn the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our find ings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this aud it according to the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.




I Federal regulations in effect at the time of the disaster set th e large project threshold !Ii $57,500.
We interviewed FEMA, KDEM, and Cooperative officials; reviewed judgmentally selected
samples of project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of the
Cooperative’s internal controls applicable to grant activities because it was not necessary to
accomplish our audit objective. However, we did gain an understanding of the Cooperative’s
method of accounting for disaster-related costs and its procurement policies and procedures.


                                    RESULTS OF AUDIT

The Cooperative generally accounted for and expended FEMA grant funds according to federal
regulations and FEMA guidelines. However, the Cooperative claimed $133,440 in mutual aid
costs incurred in completing permanent recovery work, which is not eligible according to FEMA
policy.

Finding A: Mutual Aid Costs

The Cooperative’s claim included $133,440 ($100,080 federal share) for mutual aid costs to
complete work that FEMA classified as permanent work (Category F). FEMA Public Assistance
Policy 9523.6 (September 22, 2004), Mutual Aid Agreements for Public Assistance and Fire
Management Assistance, section 7.E.1.b.(i), states that examples of mutual aid work that are not
eligible include permanent recovery work. This policy also states in section 7.G.6 that
reimbursement for work beyond emergency assistance, such as permanent repairs, is not eligible
for mutual aid assistance. Therefore, we question $133,440 as ineligible costs for Category F
work.

On August 16, 2011, FEMA Region VII requested a waiver of FEMA’s mutual aid policy for
Disaster 1626. Although FEMA has granted numerous waivers for mutual aid claims for
permanent work in the past, as of our exit conference with FEMA Region VII on September 12,
2011, FEMA headquarters had not granted a waiver for this specific disaster.


                                    RECOMMENDATION

We recommend that the Regional Administrator, FEMA Region VII:

   Recommendation #1: Disallow $133,440 ($100,080 federal share) of ineligible costs for
   mutual aid work that FEMA classified as permanent work.


                           DISCUSSION WITH MANAGEMENT

We discussed the results of our audit with FEMA, KDEM, and Cooperative officials during our
audit and included their comments in this report, as appropriate. We also provided written
summaries of our findings and recommendations in advance to these officials and discussed
them at the exit conferences held with KDEM officials on September 8, 2011, and with FEMA



                                                2

and Cooperative officials on September 12, 2011. These officials all agreed or at least
understood the audit finding, but KDEM disagreed with the recommendation because FEMA had
previously granted waivers for similar findings to allow claims for mutual aid costs.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for the recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendation will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website. Significant contributors to this report were Tonda Hadley,
Moises Dugan, William Lough, Cheryl Spruiell, and Patricia Epperly.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.


cc:    	Administrator, FEMA
       Audit Liaison, FEMA (Job Code G-11-38)
       Audit Liaison, FEMA Region VII
       Audit Liaison, DHS




                                               3

                                                           EXHIBIT

            Schedule of Projects Audited 

      November 27, 2005, through May 26, 2009 

Prairie Land Electric Cooperative Inc., Norton, Kansas 

         FEMA Disaster Number 1626-DR-KS 


         Project   Claimed       Questioned
         Number    Amount          Costs
            37   $      4,382      $       0
            38     25,766,765        133,440
            39      1,293,015              0
          Totals $27,064,162       $133,440




                          4

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
